Pe
 aceCor
      ps
Of
 fi
  ceof
     Ins
       pec
         tor
           Gen
             era
               l
Se
 mia
   nnu
     alRe
        por
          tt
           oCo
             ngr
               es
                s




              Ap
               ri
                l1
                 –Se
                   pte
                     mbe
                       r30,
                          201
                            2
PAGE INTENTIONALLY LEFT BLANK
                     PEACE CORPS
          OFFICE OF INSPECTOR GENERAL
                                       Vision:
Provide high impact work products that agency management acts upon to increase
                 the Peace Corps‟ efficiency and effectiveness.
                                      Mission:
 Through audits, evaluations, and investigations, the Office of Inspector General
  (OIG) provides independent oversight of agency programs and operations in
support of the goals set forth in the Peace Corps Act while making the best use of
                                   taxpayer dollars.
OIG:

       Promotes integrity, efficiency, effectiveness, and economy
       Prevents and detects waste, fraud, abuse, and mismanagement
       Identifies risk and vulnerabilities and offers expert assistance to improve
       Peace Corps programs and operations



 Established in February 1989, OIG receives its legal authority from the Inspector
  General Act of 1978, as amended. The law requires that OIG fully and currently
inform the Peace Corps Director and the Congress about problems and deficiencies
     identified by OIG relating to the administration of agency programs and
                                     operations.



               Semiannual Report to Congress

                   April 1 – September 30, 2012
PAGE INTENTIONALLY LEFT BLANK
                                         PEACE CORPS O FFICE OF INSPECTOR GENERAL


                                                    Table of Contents
Highlights from this Report .............................................................................................................. 1
        Message from the Inspector General........................................................................................... 1
Management and Administration .................................................................................................... 4
        Agency Context ............................................................................................................................ 4
        OIG Staffing ................................................................................................................................. 4
        Outreach Committee .................................................................................................................... 5
        OIG Organizational Chart ............................................................................................................ 6
Advice and Assistance Provided to the Agency and Others ........................................................ 8
        Safety and Security Oversight in PC/Cameroon ........................................................................ 8
        Investigative Outreach Initiative ................................................................................................. 8
        Management Advisory Report: Peace Corps Drug-Free Workplace Plan ............................... 8
        Management Advisory Report: Breakdown of Internal Controls of PC/Burkina Faso
        Medical Unit ................................................................................................................................. 9
        Recurring Issues: OIG Post Audits and Evaluations Fiscal Years 2009 - 2011....................... 9
        Policies and Procedures ............................................................................................................. 10
Management and Performance Challenges .................................................................................. 12
        Inspector General‟s Statement ................................................................................................... 12
Audits .................................................................................................................................................. 20
   Agency-wide Audits ....................................................................................................................... 20
        Peace Corps FY 2012 Financial Statement Audit .................................................................... 20
        Annual Review of Peace Corps FY 2012 Information Security Program .............................. 21
   Audits of Overseas Operations ...................................................................................................... 21
        PC/Lesotho: Audit ...................................................................................................................... 21
        PC/China: Limited Scope Audit ................................................................................................ 22
        PC/Jordan: Audit ........................................................................................................................ 22
        PC/Tonga: Audit......................................................................................................................... 23
   Contract Audits ............................................................................................................................... 23
        Entrena, S.A. Contract Closeout Audit ..................................................................................... 23
Evaluations ........................................................................................................................................ 26
   Agency-wide Evaluations .............................................................................................................. 27
        Impacts of the Five-Year Rule on Operations of the Peace Corps.......................................... 27
        Review of the Peace Corps‟ Implementation of Guidelines Related to Volunteer Victims of
        Rape and Sexual Assault ............................................................................................................ 28
   Country Program Evaluations ........................................................................................................ 29
        PC/China: Country Program Evaluation ................................................................................... 29
        PC/Uganda: Country Program Evaluation ................................................................................ 30
        PC/Indonesia: Country Program Evaluation ............................................................................ 31
Investigations ..................................................................................................................................... 34
   Legacy Cases .................................................................................................................................. 35
        Homicide Investigation at a Post in Africa ............................................................................... 35
        Conviction of a Former Peace Corps Volunteer....................................................................... 35
   Criminal and Misconduct Related Investigation Highlights ........................................................ 35
        Nepotism Allegation at Peace Corps Headquarters ................................................................. 35
        Medical Supply Problems at a Post in Africa ........................................................................... 35
        Reprisal Allegation at a Post in Europe .................................................................................... 36
        Vehicle Auction Rigging at a Post in Asia ............................................................................... 36
        Conflict of Interest at a Post in Asia ......................................................................................... 36
        Conversion of Grant Funds at a Post in Africa......................................................................... 36
        Breach of Confidentiality at a Post in South America ............................................................. 37
        Violation of Small Business Development Regulations .......................................................... 37
Tables .................................................................................................................................................. 40
        1: List of Reports: Audits and Evaluations ............................................................................... 40
        2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use .......... 41
        3: Status of Reports Issued by OIG with Questioned and Unsupported Costs ...................... 42
        4: Status of Reports Issued by OIG with Funds to be Put to Better Use ................................ 43
        5: Recommendations on which Corrective Action has not been Completed ......................... 44
        6: Summary of Investigative Activities and Outcomes ........................................................... 46
        7: Summary of Hotline and Other Complaints ......................................................................... 47
        8: References to Reporting Requirements of the Inspector General Act ................................ 48
Appendixes ......................................................................................................................................... 50
   A: Reporting of Peer Reviews ....................................................................................................... 50
   B: Contract Audit Reports.............................................................................................................. 50
   C: Review of Legislation and Regulations ................................................................................... 51
                          PEACE CORPS O FFICE OF INSPECTOR GENERAL




                        Highlights from this Report
                           Message from the Inspector General

                        I am pleased to present the Peace Corps OIG‟s Semiannual Report to
                        Congress (SARC) for the period of April 1, 2012-September 30, 2012.
                        During this reporting period, OIG issued two significant agency-wide
                        evaluations.

                         The first, on the impact of the rule limiting staff terms, known as “the
                         five-year rule” (FYR), found that the FYR caused unique retention
                         problems as well as exacerbated common management and performance
                         challenges related to attracting and retaining personnel. The FYR has
                         accelerated annual employee turnover to between 25 and 38 percent,
                         quadruple that of the rest of the federal government. Average employee
tenure over the past 10 years has been just under three years and, for the five-year period from
2005-09, we estimated the FYR cost the agency between $12.6 million and $15.5 million. OIG
has identified excessive turnover as a management and performance challenge in fiscal year (FY)
2012. The second report was a review of the agency‟s implementation of protocols and
procedures in responding to Volunteer rape or sexual assault victims. The review found that the
victims OIG interviewed whose incidents occurred in 2009-11 were generally satisfied with the
quality of the agency‟s response, along with the support they received in the aftermath of their
assaults. However, the agency still has work to do in implementing its sexual assault risk
reduction and response training.

Our office also published Recurring Issues: OIG Post Audits and Evaluations Fiscal Years 2009-
2011, which identified issues that have continued to be problems for posts and require
management‟s attention to help remediate. Through this report, OIG also identified recurring
management and performance challenges associated with the agency‟s ability to effectively
place, train, and support Volunteers and with implementing controls over medical supplies,
including controlled substances. We recently issued a Management Advisory Report: Breakdown
of Internal Controls of PC/Burkina Faso Medical Unit, which illustrates the risk of not
addressing a recurring issue. OIG‟s review highlighted the post‟s failure to maintain an accurate
and complete medical supply inventory, and the post lost accountability more than $52,000
worth of medical supplies it received from another post. The review also found the post
permitted a non-medical staff member to dispense prescription pharmaceuticals to Volunteers
without proper consultation with a medical doctor, likely placing Volunteers at risk.

The Audit Unit issued final reports for post audits of Jordan, Lesotho, and Tonga, and a limited
scope audit of China. It also initiated post audits on Malawi and South Africa. At headquarters,
the Audit Unit issued a preliminary report on the funding supporting the Peace Corps‟ 50th
anniversary program. Work is continuing on a review of the agency‟s management of external
funds and grants for Volunteer projects.



April 1 to September 30, 2012                                                             1
The Evaluation Unit issued final reports on post evaluations of China, Indonesia, and Uganda,
and initiated post evaluations of Malawi and Namibia.

The Investigation Unit closed five investigations and 90 preliminary inquiries. It also engaged
with the Recovery, Accountability and Transparency Board to research potential fraud and
conducted field investigation and interviews to verify continued eligibility for Federal
Employees‟ Compensation Act (FECA) benefits.

On June 27, former PC/South Africa Volunteer Jesse Osmun pleaded guilty to one count of
traveling from the United States to South Africa to engage in illicit sexual conduct with children.
Osmun has admitted that he sexually abused four girls, all under age 6, while he was a
Volunteer. Osmun‟s sentencing is scheduled to be held in October 2012.

OIG continues to monitor the agency‟s progress in implementing the requirements of the Kate
Puzey Peace Corps Volunteer Protection Act of 2011 (Public Law 112-57, hereafter the Kate
Puzey Act), which enhances Volunteer safety and security. In May 2012, the Peace Corps and
the Department of State, Bureau of Diplomatic Security (DS) signed a memorandum of
understanding formalizing, among other matters, how the two agencies will respond to crimes
against Volunteers and staff. OIG signed its own agreement on overseas investigations with DS,
which provides for formal channels for information sharing, cooperation, and mutual assistance.

Finally, I am pleased to announce the Council of the Inspectors General on Integrity and
Efficiency (CIGIE) recognized OIG for excellence for its audit of the Peace Corps‟ budget
formulation process and for its program evaluation of Peace Corps/Peru. The awards will be
presented in October 2012.




                                                     Kathy A. Buller
                                                     Inspector General




      2                                                  Semiannual Report to Congress
Management and Administration




Acting Director Carrie Hessler-Radelet with OIG Interns (l-r): William Genschow, Erin
Collins, Logan Davis, and Michael Barfield at an agency intern appreciation event.
                   Management and Administration
Agency Context

As of September 30, 2012, 8,073 Peace Corps Volunteers and trainees were serving in 76
countries at 70 posts. This total includes 753 Volunteers and trainees funded by the President‟s
Emergency Plan for AIDS Relief (PEPFAR) to work on HIV/AIDS projects in 21 countries at 19
posts and 163 Peace Corps Response Volunteers serving in short-term assignments in 40
countries at 37 posts.

The Volunteers and their programs are supported by 896 American direct-hire staff members,
including 600 at headquarters, 192 overseas, and 104 in regional recruiting offices.
Approximately 2,900 locally hired personnel complete post staffing. The Peace Corps also has
corporate contracts domestically and overseas, principally for guard services and training, and
hires expert consultants, primarily for training and financial management.

OIG Staffing

Christopher Fontanesi joined OIG as an administrative assistant in April 2012. Fontanesi served
as a community economic development Volunteer in Romania from 2007-11, working both with
Habitat for Humanity Romania as a program manager and assisting PC/Romania with its
programming and training. For his service, Fontanesi was awarded both the John F. Kennedy
Service Award by Peace Corps (2011) and Habitat for Humanity International Linda Fuller
Award for Volunteering Excellence (2010). Fontanesi holds a bachelor‟s degree in political
science from the University of California Santa Barbara and is currently studying law part-time
at American University Washington College of Law.

John Warren joined OIG as the assistant inspector general for investigation in April 2012.
Warren has over 17 years of federal law enforcement experience. He previously served as
assistant special agent in charge at the Department of Homeland Security OIG‟s Houston Field
Office, where he managed the conduct of border corruption and disaster fraud investigations. He
has also served as the Department of State‟s regional security officer (RSO) at the U.S.
Consulate-General in Ciudad Juarez and assistant RSO at the U.S. embassies in Santiago and
Karachi. Warren has also been a special agent at the U.S. Customs and Border Protection Office
of Internal Affairs, the Department of Justice OIG, and the U.S. Immigration and Naturalization
Service. He served with the U.S. Army in Saudi Arabia during Operation Desert Shield/Desert
Storm and is a graduate of George Mason University, where he received a bachelor‟s degree in
international studies.

Logan Davis joined OIG as an outreach committee intern in March 2012. She was hired for
summer 2012 as an administrative support clerk and returned as an intern for the 2012-13 school
year. Davis is currently a senior majoring in Asian studies at the Elliott School of International
Affairs at George Washington University.

Tim Shaw joined OIG as an Evaluation Unit apprentice in September 2012. He is currently a
public policy and management graduate student at Carnegie Mellon University. Shaw was a

      4                                                  Semiannual Report to Congress
                         PEACE CORPS O FFICE OF INSPECTOR GENERAL


Coro Fellow in public affairs and has worked as a researcher and analyst in the economic
development, drug policy, and human services fields.

David Kierski joined OIG as a temporary executive assistant from May-October 2012, during
which he edited all OIG publications and communications. Kierski is an RPCV who served in
Cambodia from 2009-11. He was previously an editor of a catalog, editor-in-chief of a magazine,
and a freelance writer and editor in journalism, education, marketing, travel, and business.

Outreach Committee

The OIG Outreach Committee (OC) aims to increase staff and Volunteer awareness of OIG
functions and responsibilities and to encourage the reporting of fraud, waste, and abuse. During
this reporting period, the OC launched a Twitter account and created a video about the role of
OIG. The OC is currently creating luggage tags in an effort to provide trainees with OIG contact
information at pre-service staging in compliance with the Kate Puzey Act, as well as USB drives
with OIG contact information to give to Volunteers.




April 1 to September 30, 2012                                                              5
OIG Organizational Chart
                                       Inspector General
                                        Kathy A. Buller


                                      Deputy IG and Legal
                                           Counsel
                                        Joaquin Ferrao


                                                  Chief Administrative                            Administrative
                                                                           Writer/Editor             Assistant
                                                         Officer
                                                                           Lisa Chesnel        Christopher Fontanesi
                                                  Sarah O'Neill Gerwin



         AIG/Investigation                AIG/Audit                  AIG/Evaluation
           John Warren                  Bradley Grubb                 Jim O'Keefe



                Senior Investigator             Lead Auditor                Lead Evaluator
               Joseph Bodensteiner             Snehal Nanavati             Heather Robinson



                Senior Investigator             Senior Auditor              Senior Evaluator
                  Joyce Shores                  Waheed Nasser                Jeremy Black



                Senior Investigator                Auditor                 Senior Evaluator
                  Mark Supple                   Gabrielle Perret            Susan Gasper



                   Investigator                     Expert                  Senior Evaluator
                 Jeffrey Reichert                 Jeffrey Lee               Reuben Marshall



                   Investigator                    Auditor                    Evaluator
                     vacant                        vacant                     Danel Trisi



                   Investigator                     Auditor                Program Analyst
                     vacant                         vacant                     vacant




     6                                                        Semiannual Report to Congress
Advice and Assistance Provided to the
Agency and Others




PC/Uganda Volunteer Lisa Flynn with school children.
              Advice and Assistance Provided to the
                       Agency and Others

Safety and Security Oversight in PC/Cameroon

In response to concerns raised to the House Committee on Foreign Affairs regarding
PC/Cameroon, OIG reviewed elements of the post‟s response to crimes committed against
Volunteers, its development and approval of Volunteer work sites, and the safety and security
information provided to trainees and Volunteers. OIG did not find evidence that the allegations
brought to the committee regarding site development and housing were well-founded. However,
the review did identify weaknesses related to Volunteer housing check documents, site history
files, and the authority and responsibilities of the post‟s safety and security coordinator. OIG
transmitted that information to regional and post managers for their information and action. In
addition, a separate OIG investigation related to this matter is ongoing.

Investigative Outreach Initiative

OIG investigators continued an outreach initiative started during the last SARC reporting period.
During the current reporting period, the initiative reached 113 Peace Corps staff members and
Volunteers, educating them about the role of OIG investigators, the mission of OIG, the types of
allegations typically referred, and OIG‟s readiness to respond to allegations. Additionally,
discussions included ways to detect potential fraud, waste, and abuse of Peace Corps resources.
Briefings were followed by an open forum to address any concerns and answer questions.

Management Advisory Report: Peace Corps Drug-Free Workplace Plan

OIG issued this Management Advisory Report about the agency‟s noncompliance with
Executive Order 12564, issued in 1986, which broadly mandates a drug-free federal workplace
and makes refraining from illegal drug use on or off duty a condition of federal employment. It
also created two more specific mandates: first, that all executive agencies create detailed,
agency-specific programs to ensure a drug-free workplace and, second, that all employees
serving in “sensitive positions” are randomly tested for drug use.

In 1988, the Peace Corps developed a Drug-Free Workplace Plan (DFWP), which was
subsequently reviewed and certified by the Department of Health and Human Services as having
met all the essential requirements of federal law. However, there is no evidence the plan was
implemented or that any employees have ever been tested.

OIG recommended that random drug testing commence immediately, that the DFWP be updated,
revised, and implemented, and that the Peace Corps consider the feasibility of the DFWP‟s
mandatory drug testing to include employees working in sensitive positions abroad.




      8                                                 Semiannual Report to Congress
                          PEACE CORPS O FFICE OF INSPECTOR GENERAL


Management Advisory Report: Breakdown of Internal Controls of PC/Burkina
Faso Medical Unit

Controlling and tracking medical supplies continues to be a struggle for Peace Corps posts. The
lack of internal controls over medical supplies has been a recurring issue identified in OIG audits
from 2009-11. OIG responded to an especially egregious situation at PC/Burkina Faso based on
information received from OMS. In a spot review, OMS identified 14,065 individual unit
differences for 31 unique medicines (including seven controlled substances) in the post‟s last
four medical supply inventories. PC/Burkina Faso had the fourth highest medical costs per
Volunteer-year in the Africa region.

During the site visit, OIG identified a lack of adequate oversight, poor controls, and the disregard
of essential Peace Corps policies by Peace Corps medical officers (PCMOs) and the country
director. The post did not have an effective process for tracking medical supplies to prevent
misappropriation and improper dispensing. Without completing an accurate medical supply
inventory workbook, the post did not have the information necessary to identify discrepancies
during physical inventory counts. Further, the post did not limit access to controlled and
specially designated drugs and failed to properly document controlled substances in the Drug
Enforcement Administration logbook. In addition, the post permitted a non-medical staff
member to dispense medical supplies, including specially designated items that require a medical
prescription, likely placing Volunteers at risk. Volunteers freely requested and received such
medical supplies without proper consultation with a doctor or verification of Volunteer medical
charts and records.

In addition, the post did not fully document the transfer of medical supplies from another post
and did not conduct a proper transfer of excess medical supplies to the U.S. Embassy. Based on
interviews and documentation, OIG determined that the post circumvented controls by diverting
medical supplies to a private entity as a donation and failed to maintain accountability of more
than $52,000 worth of transferred medical supplies.

Recurring Issues: OIG Post Audits and Evaluations Fiscal Years 2009 - 2011

In April 2012, OIG summarized the recurring issues identified during fiscal years (FYs) 2009-11
to identify systemic and longstanding weaknesses. The report compiled OIG reports on 42 post
audits and country program evaluations covering 35 overseas posts, highlighting recurring issues
regarding the safety and security of Volunteers, controls over business processes, and
programming and Volunteer training. The report demonstrated that posts often struggle with
similar issues and highlighted areas that need headquarters‟ focus attention and training.

OIG identified that the majority of posts visited struggled to fully implement agency safety and
security policies and procedures, specifically with regard to emergency action plans and
consolidation points, housing checks, site locator forms, and staff security background
certifications. Most posts had not developed effective controls over common business processes,
including managing personal property and vehicles, complying with policies for imprest fund
management, and implementing agency controls over medical supplies. These processes were
largely manual operations that relied heavily on the knowledge and expertise of the staff. Many


April 1 to September 30, 2012                                                              9
posts OIG visited needed to improve their programming and Volunteer training, specifically in
the areas of site development, adequacy and applicability of Volunteer training, and coordination
with host country ministries and project partners.

Policies and Procedures

OIG continues to provide advice and assistance to the Peace Corps Senior Policy Committee
(SPC) by commenting on drafts of new or updated policies and procedures. The agency has been
engaged in a robust effort to update and develop new policies and procedures when deemed
appropriate. During this reporting period, the SPC has reviewed 29 “Peace Corps Manual”
sections (MS), corresponding procedures, and interim policy statements (IPS). OIG‟s proactive
engagement is intended to help support efforts to improve the effectiveness and efficiency of
Peace Corps programs and operations. Revisions made to MS 702, “The Budget Process,” and
MS 126, “Volunteer Recruitment and Selection,” addressed earlier OIG recommendations. MS
861, “Office of Inspector General,” was revised, reorganized, and updated to incorporate changes
in federal legislation and agency policy and to clarify staff and Volunteer reporting requirements.

As the agency moves toward implementation of its Kate Puzey Act requirements, OIG has
provided comments and concerns on a number of draft IPS‟s and revised MS‟s. In particular,
OIG has provided detailed comments concerning policies related to Volunteer sexual
misconduct, a sexual assault hotline, restricted reporting, and the assignment of inherently
governmental functions to personal services contractors. OIG will continue to provide comments
that uphold and recognize the proper role, independence, and statutory authority of the IG,
support compliance with existing law, and promote internal controls and efficient business
practices.




     10                                                  Semiannual Report to Congress
Management and Performance
Challenges




The Virunga Mountains in Uganda.
            Management and Performance Challenges

Inspector General’s Statement

In accordance with the Reports Consolidation Act of 2000, OIG is submitting what it has
determined to be the most significant management and performance challenges facing the Peace
Corps. The challenges, discussed in the attachment to this memo, are to be included in the
agency‟s PAR for FY 2012. OIG has concluded that three of the five areas it identified as
management and performance challenges in previous years continue to present significant
challenges at the Peace Corps. Further, for FY 2012 OIG has included two challenge areas
(Property Management and Protection of Personally Identifiable Information (PII)) under
“Business Processes and Information Systems” that were previously presented separately. In
addition, OIG has identified three new challenge areas.

This year‟s challenge areas are:

       Information Technology (IT) Management (first reported in FY 2009)
       Effective and Timely Remediation of OIG Findings and Recommendations (FY 2010)
       Business Processes and Information Systems (FY 2011)
       Excessive Personnel Turnover (new)
       Programming and Volunteer Training (new)
       Accountability of Medical Supplies (new)

These challenges illustrate the most significant areas OIG believes need improvement for the
Peace Corps to effectively manage its resources and minimize the potential for fraud, waste, and
abuse occurring in its operations. By addressing the issues related to these challenge areas, the
agency could potentially increase operational efficiencies and improve mission effectiveness.


FY 2012 Challenges

Challenge      IT Management

As noted in previous years the most significant risk for this challenge area is ensuring that
limited resources will be put to use where most needed. The Office of the Chief Information
Officer (OCIO) has made significant progress in managing IT resources by improving its
customer service through enhancements in how it responds to meet customer requirements and
restructuring and streamlining its operations. OCIO has also aligned IT resources with the
agency‟s business processes by establishing programs to better link goals and objectives to
resources and developing a business process five-year enterprise and architecture and a roadmap
to guide its work. Further, OCIO management continues to make substantial IT upgrades at
overseas locations.


     12                                                 Semiannual Report to Congress
                          PEACE CORPS O FFICE OF INSPECTOR GENERAL


Management has also made good progress in strengthening Peace Corps‟ IT security
management and further improvements to the process are ongoing. However, some issues
associated with the Federal Information Security Management Act (FISMA) compliance that
were discussed in prior year challenges statements have not been fully resolved. For example,
some processes for configuration management have not been completely implemented; various
contingency plan testing weaknesses still exist at both overseas posts and headquarters; and some
risk assessment and systems security planning documentation have not been completely updated.
Achieving full compliance with federal laws and regulations that apply to managing the Peace
Corps‟ IT infrastructure are continuing management challenges. Resourcing issues continue to
have a major impact on OCIO priorities as evidenced by high personnel turnover in key technical
areas due in large part from term limited personnel appointments imposed by law and availability
of qualified resources to fill vacant positions. As a result, throughout the past fiscal year OCIO
has been about 20 percent below its programmed staffing strength.

Challenge      Effective and Timely Remediation of OIG Findings and Recommendations

Over the last two years OIG has been reporting a challenge related to untimely remediation of
OIG findings and recommendations. Although management has made progress in remediating
findings and recommendations, it continues to not be timely in taking corrective actions
necessary to remediate the deficiencies noted in OIG reports. During FY 2012 management fully
remediated 121 recommendations of the 245 recommendations issued in FY 2012 and took
actions to close 96 prior year‟s recommendations. The table below indicates the total number of
recommendations open for more than 180 days for the last eight years.

                   OIG Open Audit/Evaluation Report Recommendations
              Fiscal Year OIG    Number of Open         Number of Open
               Report Issued     Post and Agency-    FISMA and Financial
                                       wide             Statement Audit
                                Recommendations        Recommendations
                   2012*                27                    N/A
                    2011                34                     6
                    2010                 7                     3
                    2009                 2                     5
                    2008                 5                     4
                    2007                 0                     5
                    2006                 0                     0
                    2005                 0                     1
                    2004                 0                     1
             Total No. of Open
             Recommendations            75                     25
            *Includes only those open since March 31, 2012. The FY 2012 FISMA and
            Financial Statement Audit Recommendations have not been included.

The lack of effective and timely remediation of OIG findings and recommendations is a trend
that has continued through the current fiscal year. There are a number of significant audit and
evaluation findings and recommendations that have remained in an open status for two to eight

April 1 to September 30, 2012                                                            13
years. Although the agency generally remediates recommendations for overseas posts in a timely
and efficient manner, remediation of some of the more complex recommendations requiring
corrective actions that change how the agency operates as a whole or have wide-ranging impact
has not been closed timely. More complex recommendations often involve a more substantial
level of effort and broader coordination and communication. For example, some
recommendations having an impact on information security and property accountability have
been open for more than two years. OIG believes agency management needs to place greater
emphasis on improving its overall remediation process to include focusing on the higher priority
and long outstanding recommendations.

Challenge      Business Processes and Information Systems

Although the Peace Corps continued to streamline operations and improve the technology that
supports key business processes and critical Volunteer support functions, it is constrained by
limited resources and inadequate planning. A responsive management team that provides quality
support services to Volunteers will require enhanced business processes and modern IT systems.

Agency business processes must also support effective internal controls and access to reliable
data. During the past fiscal year, OIG‟s work has disclosed some common problems related to
maintaining effective internal controls. According to the Office of Management and Budget
(OMB) Circular A-123, “Management is responsible for establishing and maintaining internal
control to achieve the objectives of effective and efficient operations, reliable financial reporting,
and compliance with applicable laws and regulations.” It is imperative agency management
implements the necessary automated and manual controls throughout their processes to ensure
the desired results are achieved. The agency is improving its controls through recent revisions to
policies and procedures and automated solutions in areas such as Volunteer payments, property
management, and bills of collection. However, some important initiatives to improve business
processes have been delayed or postponed. Further, management must develop monitoring
mechanisms to ensure their controls are operating effectively. As shown in OMB Circular A-
123, “Monitoring the effectiveness of internal control should occur in the normal course of
business. In addition, periodic reviews, reconciliations or comparisons of data should be included
as part of the regular assigned duties of personnel. Periodic assessments should be integrated as
part of management‟s continuous monitoring of internal control, which should be ingrained in
the agency‟s operations.”

Although progress has been made, the agency still requires improvements in critical mission
areas such as:

Property Management
The Peace Corps reported having property valued at $35.2 million in FY 2012. Accountability
over Peace Corps property, such as vehicles, furniture, and computer equipment, continues to
present challenges for management. The agency‟s new property accountability system was
deployed in the fourth quarter of FY 2011. The Office of Management (OM) assisted posts in
rectifying some of the initial system implementation issues and provided additional hands-on
training to general services managers in August 2012. OM continues to work closely with staff
members responsible for property management. However, OIG‟s FY 2012 audits found that

     14                                                    Semiannual Report to Congress
                          PEACE CORPS O FFICE OF INSPECTOR GENERAL


posts were still struggling to design work processes around the new system and that the initial
data loaded into the system had inaccuracies. In addition, OIG‟s external auditor continues to
report that the agency has not taken the necessary corrective actions to ensure accurate tracking
of assigned laptop computers at headquarters. Management has acknowledged the internal
control deficiencies found by the external auditor and recently initiated corrective actions.

Safety and Security
The agency continues to improve aspects of its safety and security program however it has not
yet established some critical processes, such as developing a system to ensure safety and security
recommendations are implemented by posts. The majority of the 42 posts visited by OIG in
2009–2011 struggled to fully implement agency safety and security policies and procedures,
specifically with regards to emergency action plans and consolidation points, Volunteer housing,
site locator forms, and security background certifications for staff. For example, while the
agency has established instructions to assist in these areas, additional training and monitoring are
needed to ensure consistent implementation at posts. Similarly, the agency made progress by
entering into a memorandum of understanding (MOU) with DS in May 2012 defining the roles
and responsibilities for responding to staff and Volunteer safety and security incidents overseas.
The execution of the MOU was included in a recommendation in the 2010 audit of the Volunteer
safety and security program and subsequently mandated by the Kate Puzey Act. While the
execution of the MOU is an important milestone, dissemination of the MOU, follow up guidance
from the Office of Safety and Security (SS), and training will determine how effectively the
MOU will be implemented. Given the decentralized nature of the Volunteer safety and security
program and the number of overseas personnel with safety and security roles, it will be a
management challenge to adequately train and oversee staff to ensure posts are fully complying
with agency policies and guidance, a finding that was reported in OIG‟s 2008 Final Program
Evaluation Report: Volunteer Safety and Security.

Data Management
As the agency automates business processes, proper data management is essential to ensure the
accessibility of useful and accurate data. Several new systems that will streamline operations and
provide more robust data for management analysis and decision making are being developed. For
example, the agency deployed systems to automate fleet vehicle management and process
requests for personnel actions, and is piloting an e-solution to automate the process for approving
employee leave. However, progress in modernizing the Peace Corps‟ timekeeping system has
been delayed due to the inability of current available products to fulfill the timekeeping
requirements for overseas staff. Further, the Peace Corps continues to process travel requests and
reimbursement submissions manually. Although the General Services Administration has
recently awarded a new vendor contract for a government-wide e-travel system slated to begin in
FY 2013, the agency‟s review of system capabilities and necessary subsequent training may push
actual Peace Corps‟ implementation of the new system to sometime in FY 2014. Another major
initiative is the new electronic medical records system to be fully deployed in FY 2014, which
will have a component that will give the agency access to data on medical expenditures and other
important related information. These systems are essential for recording and tracking useful data
to help managers make informed decisions.




April 1 to September 30, 2012                                                               15
Protection of PII

This challenge was identified by OIG in FY 2009, and although the number of reported breaches
decreased during FY 2012, the issue continues to be of concern. The agency reported six PII
breaches in FY 2012 compromising the data of 17 individuals. One of the reported breaches
involved 40 boxes of information containing post files that went missing. The extent to which
those boxes contain PII and the number of affected individuals is unknown. In a separate
incident, a box of records containing completed confidential financial disclosure report forms
(OGE Form 450) was lost during an office move. Agency officials concluded that this loss was
not a PII breach. Although OGE Form 450 does not ask for PII, it is possible some agency staff
members provided such information with the forms submitted. Since FY 2009, the agency has
updated incident response policy and modified breach notification policy, provided training in
New Employee Orientation, with additional training offered after a confirmed breach; and
reduced paper files containing PII through the Database of Volunteer Experience (DOVE)
automated system. The agency is in the process of automating the medical records, which will
further reduce the paper files containing PII.

Challenge            Excessive Personnel Turnover

In June 2012 OIG issued its final report on the impacts the „five-year rule‟ (FYR) has had on
operations of the Peace Corps.1 Peace Corps management concurred with the report‟s five
recommendations and is in the process of formulating its plan for reform. The FYR, which
became law in 1965, generally limits employment of Peace Corps‟ U.S. direct hire personnel to
five consecutive years (two 30-month tours). The purpose of the FYR was to create a constant
flow of new employees including returned Peace Corps Volunteers (RPCVs) and overseas staff;
avoid the inflexibility associated with the civil service system; and prevent employees from
working their entire career at Peace Corps. OIG‟s evaluation found that the FYR has enabled the
agency to attract a mission-driven, energetic workforce and to employ RPCVs extensively,
including in leadership positions at overseas posts. However, the FYR has caused unique
employee retention problems and exacerbated a range of common management challenges.

The FYR has accelerated the annual rate of employee turnover to between 25 and 38 percent,
quadruple that of the rest of the federal government. Most employees do not stay for five years;
average employee tenure over the past 10 years has been just under three years. High turnover
has undermined the agency‟s ability to retain its employees on the basis of performance, conduct
succession planning, ensure continuity of needed skills and abilities, provide training and
professional development to staff; and deploy its workforce efficiently.

The FYR has weakened the agency‟s ability to attract and retain highly qualified professionals in
the areas of contracting, financial management, IT, human resources management, and medical
support functions. It has also led to frequent staffing gaps in key management positions overseas.
Further, the practice of employing staff on 30-month tours has compromised performance
management by allowing supervisors to avoid actively managing underperforming employees.
Finally, OIG estimated that over the five-year period from 2005-2009, excessive turnover driven


1
    Final Evaluation Report: Impacts of the Five-Year Rule on Operations of the Peace Corps

         16                                                                Semiannual Report to Congress
                                  PEACE CORPS O FFICE OF INSPECTOR GENERAL


by the FYR accounted for approximately 60 percent of $20.7 million in total turnover
management costs.2

Challenge           Programming and Volunteer Training

Programming and Volunteer training is at the heart of the Peace Corps‟ operations and enables
the agency to achieve its primary mission. In 2012 OIG issued the report Recurring Issues: OIG
Post Audits and Evaluations Fiscal Years 2009–2011, which identified recurring management
and performance challenges associated with the agency‟s ability to effectively place, train, and
support Volunteers. OIG has continued to identify and report challenges related to programming
and Volunteer training in its country program evaluation reports issued in 2012, with common
problem areas being site development, the adequacy and applicability of Volunteer training, and
coordination with host country ministries and project partners.

Site development
Placing Volunteers in sites where they are safe, healthy, and productive is essential to their
success. Insufficient site development can result in inappropriate sites where Volunteers struggle
to achieve programming goals. Sixty-nine percent of OIG evaluation reports issued in FYs 2009–
2011 contained recommendations related to site development. Posts frequently had not
established or documented clear site development processes, nor ensured that staff had been
sufficiently trained to carry out their site development responsibilities. To mitigate site
development weaknesses, the agency presented training sessions on site identification and
preparation at their worldwide conferences in 2012 for country directors and directors of
programming and training. Additionally, the agency added an indicator in the FY 2012 annual
performance plan that measures Volunteers‟ satisfaction with site selection and preparation to
underscore the importance of this issue and to promote the identification of opportunities for
performance improvement.

Volunteer Training
Training provides Volunteers with important knowledge and skills needed for productive and
fulfilling service. Seventy-five percent of the posts OIG evaluated in FY 2009–2011 had training
deficiencies. Language and technical training were two areas commonly in need of improvement.
In some posts, technical training lacked relevance to Volunteers‟ sites or was not practical
enough to prepare them to carry out primary assignments. Some posts needed to make
improvements in language training, particularly in local language instruction or access to tutors
or other self-directed language training methods during service. Posts frequently needed better
methods to assess training effectiveness and take well-informed steps to improve training. The
agency‟s “Focus In/Train Up” initiative should help improve training if posts implement the
changes needed to focus programming and deliver relevant training.

Host Country/Project Partner Coordination
OIG evaluations have consistently reported that post relationships with host country ministries
and project partners often need improvement. Some posts have not adequately engaged key

2
  This estimate only includes direct costs and did not take into account costs that were more difficult to quantify, including the
loss of expertise when high-performing staff appointments ended; reductions in productivity; or gaps in institutional memory and
knowledge.

April 1 to September 30, 2012                                                                                          17
project partners in programming, including project design and implementation. Others have not
sufficiently communicated project results and Volunteer achievements to host partner ministries
and organizations. Not all posts had established formal communication methods that brought
multiple parties together, such as project advisory committees. Without a structured way to work
with project partners, posts were not able to take full advantage of their partners‟ expertise. Some
posts had not developed and maintained MOUs with host country ministries and project partners.
The agency is encouraging the use of project advisory committees (PACs) to ensure local
partners are consulted throughout the cycle of a project. The FY 2012 annual performance plan
also includes an indicator that sets targets for program managers‟ use of PACs to improve
performance and gather best practices. As a result, PACs use increased from 33 percent of all
projects in FY 2011 to 69 percent of projects in FY 2012.

Challenge      Accountability of Medical Supplies

Audit and investigative work performed during FY 2012 has clearly shown that agency
management needs to continue to place strong emphasis on improving accountability of medical
supplies. The Peace Corps maintains medical supplies to provide Volunteers with needed
vaccinations, medications, and emergency medical support. Peace Corps posts spend
approximately $5 million a year on medical supplies. In FY 2008, the Peace Corps substantially
revised its medical supply policies and procedures to provide adequate separation of duties; track
the purchasing, dispensing, and disposing of medical supplies; and mitigate the risk of loss or
theft. During FY 2012 the Office of Medical Services (OMS) further revised its policies and
procedures by issuing technical guidance and provided training on the policies and procedures to
country directors, Peace Corps medical officers and other overseas staff. It also regularly
communicated with posts to provide support. In the past year OMS further enhanced support by
providing on-site assistance to four posts, and performing detailed analyses of medical supply
inventory submissions from posts. Also, management has been reviewing options for automating
elements of medical supply inventory which could potentially strengthen accountability.

Although OMS has taken an active role in improving accountability of medical supplies, OIG
has found that many posts have continued to struggle with implementing policy requirements,
including separating medical supplies custody from recordkeeping responsibilities; establishing
proper workflow processes; and maintaining accurate and complete medical supply inventories.
Without sufficient oversight and compliance of the policies and procedures associated with
internal control, the Peace Corps has been unable to maintain accountability and adequately
ensure that medical supplies were not vulnerable to theft, loss, and spoilage. This lack of
effective oversight by post management contributed to opportunities for fraud, waste, and abuse.
For example, a recent OIG review of an African post found that post management did not
enforce policies and procedures or maintain accurate and complete inventory records and failed
to document receipt and dispensing of controlled substances as required by federal regulations.
In addition, prescription medications at the post were being dispensed without consultation of a
medical professional, potentially placing Volunteers at risk. Further, there was no accountability
of over $52,000 worth of medical supplies it received from another post. Effective control over
medical supplies is crucial to ensuring that Volunteers receive proper medical services and
minimizing exposure to loss, theft, and misuse of expensive medical supplies including
controlled substances.

     18                                                   Semiannual Report to Congress
Audits




PC/Lesotho Volunteer Eric Pierce and Senior Auditor Waheed Nasser with an HIV
support group in Pierce’s village.
                                            Audits
Overview

The Audit Unit conducts audits of agency programs and operations that support the Peace Corps‟
mission, including overseas posts, regional recruitment offices, and headquarters functions.
Audits are conducted in accordance with generally accepted government auditing standards
issued by the comptroller general of the United States. In addition, the unit oversees the annual
audit of the agency‟s financial statements and review of information system security performed
by an independent public accountant (IPA).

The objective of OIG audits is to independently examine the financial and administrative
operations of the Peace Corps, promote economy and efficiency, and ensure compliance with
federal law, regulations, and Peace Corps policy. Audits are wide-ranging, covering agency
activities carried out at overseas posts, as well as agency-wide operations that affect multiple
offices. Auditors report their conclusions and recommendations based on document and data
analysis, interviews, and direct observation.

At overseas posts, auditors review the financial and administrative operations for operational
efficiency and effectiveness, financial stewardship, and compliance with agency policies and
federal regulations. OIG‟s overseas post audits frequently identify recurring issues and trends. Its
reports contain recommendations to headquarters for strengthening controls to prevent and detect
systemic weaknesses. In response to OIG‟s work, the Peace Corps has revised and strengthened
policies and procedures on bills of collections and has enhanced oversight and monitoring of
medical supplies. OIG continues to review the implementation of policy and procedural
revisions, in addition to other areas of concern noted in previous audits. The Audit Unit also
monitors the agency‟s progress in correcting systemic weaknesses.

Along with the final reports described below, the unit initiated work on post audits of Malawi
and South Africa and has issued a preliminary report on the agency‟s funding of its 50th
anniversary program. The Audit Unit is continuing to review the Peace Corps‟ management of
external funds and grants for Volunteer projects.

Agency-wide Audits

Peace Corps FY 2012 Financial Statement Audit

During this reporting period, OIG engaged an IPA firm to conduct an audit of the Peace Corps‟
FY 2012 financial statements. As of September 30, 2012, the audit was ongoing. OIG intends to
issue the IPA‟s reports through a transmittal memorandum by the Office of Management and
Budget-mandated reporting date of November 15, 2012. Details regarding the audit results will
be included in the next SARC.


     20                                                   Semiannual Report to Congress
                         PEACE CORPS O FFICE OF INSPECTOR GENERAL


Annual Review of Peace Corps FY 2012 Information Security Program

FISMA requires federal agencies to establish security protections and a program to secure
information systems from unauthorized access, use, disclosure, modification, and other harmful
impacts. In addition, FISMA requires that each OIG review its agency‟s information security
program and report results to OMB annually. To meet this requirement, OMB has developed an
online data collection system for FISMA reporting from federal agencies and their respective
OIGs. The OIG review of the information security program was ongoing as of September 30,
2012. Comments on final review results will be covered in the next SARC.

Audits of Overseas Operations
PC/Lesotho: Audit
IG-12-05-A

OIG issued its audit report of PC/Lesotho in June 2012. The post‟s financial and administrative
operations required improvement in a number of areas and did not fully comply with agency
policy. Specifically, the audit found the following:

       The post did not properly secure the medical supply room, exposing its contents to risks
       associated with fraud, waste, and abuse. The post had not implemented the necessary
       processes to record and track medical supplies, resulting in incomplete and inaccurate
       medical supply inventories.

       The post lacked an adequate control over value-added tax (VAT) refunds to ensure that
       all allowable VAT refunds were identified, claimed, and collected in a timely manner.
       Further, the post did not pursue eliminating the VAT at point of sale. OIG identified
       $64,670 for potential VAT refunds that went unclaimed.

       The post had not established policies limiting the personal use of telephones and cell
       phones. Personal calls impose additional fees charged to the Peace Corps and add the
       administrative burden of tracking and billing individual users.

Management concurred with all 22 recommendations. At the end of the reporting period, all 22
recommendations are closed.

Funds to be Put to Better Use
Recommendation Number 5: Bills of Collection inappropriately voided - $2,374
Recommendation Number 13: Estimated VAT refunds unclaimed FYs 2007-11 - $64,670




April 1 to September 30, 2012                                                            21
PC/China: Limited Scope Audit
IG-12-06-A

OIG issued its limited scope audit report of PC/China in August 2012. In FY 2012, the Audit
Unit conducted reviews of 15 overseas posts using information from headquarters management
offices covering FYs 2010-12, including vouchers, bills of collection, purchase and travel cards,
staff security certifications, and medical supplies. The objective of these reviews was to identify
weak controls, report on areas of noncompliance, and assess financial and administrative risks.
OIG used the reviews to plan overseas posts audits, as the reviews informed OIG of overseas
posts that have high risks and weak controls. Based on the review, auditors determined that a site
visit to Peace Corps/China was not necessary. The limited scope audit report communicated the
results of the review to enable the post and its regional management to better assess and enhance
its financial and administrative controls. Based on the limited scope audit, OIG determined the
following:

       The post did not always clear interim advances in a timely manner and used a revolving
       advance to cover medical care and supplies.

       The post was not receiving VAT reimbursement even though the country agreement
       exempted it from taxes. The post explained that Peace Corps did not have tax exempt
       status, but would work with the U.S. embassy to find a possible solution.

       The post could increase the use of credit cards to reduce the amount of imprest fund
       activity.

Management concurred with all seven recommendations. At the end of the reporting period, five
recommendations remain open.

PC/Jordan: Audit
IG-12-07-A

OIG issued its audit report of PC/Jordan in September 2012. The post‟s financial and
administrative operations were effective and in overall compliance with agency policies and
federal regulations. However, auditors noted control weaknesses in the post‟s billing and
collection process, the tracking of expenditures associated with an interagency agreement
between the post and the U.S. Agency for International Development, and information
technology management. In addition, auditors recommended that the post request reductions in
its international cooperative administrative support services (ICASS) administered by the U.S.
Embassy, which could save the post up to $9,300 over the next three years.

Management concurred with all 17 recommendations. At the end of the reporting period, 11
recommendations remain open.

Funds to be Put to Better Use
Recommendation Number 6: Reduction in ICASS costs - $9,300


     22                                                  Semiannual Report to Congress
                          PEACE CORPS O FFICE OF INSPECTOR GENERAL


PC/Tonga: Audit
IG-12-08-A

OIG issued its audit report of PC/Tonga in September 2012. The country director, director of
management and operations, and the Office of the Chief Financial Officer (OCFO) suspected the
cashier may have misappropriated approximately $7,350 in imprest funds. OIG determined that
the cashier had potentially misappropriated an additional $12,400. This amount remained
undetected due to the lack of monitoring and follow-up of overdue bills of collection (BOCs) and
adequate controls over voided BOCs for the sale of a Peace Corps vehicle and unpaid Volunteer
allowances. Based on OIG‟s recommendations, the OCFO has revised BOC and imprest fund
procedures to enhance monitoring and detection controls worldwide.

Although management has reduced staff costs, auditors noted that PC/Tonga remains a high cost-
per-Volunteer post. OIG also identified that the post did not retain support and implement proper
separation of duties over BOC and the collection of VAT refunds from the government of Tonga.

Management concurred with all 10 recommendations. At the end of the reporting period, six
recommendations remain open.

Questioned Costs
Recommendation Number 3: Lack of Controls over voided BOC for Sale of Vehicle - $7,100
Recommendation Number 3: Lack of Controls over voided BOC for Volunteer Allowances -
$2,300
Recommendation Number 13: Inadequate Controls over the sale and disposal of Peace Corps
vehicles - $3,000

Contract Audits
Entrena, S.A. Contract Closeout Audit

As requested by the Peace Corps Office of Acquisitions and Contract Management, OIG
conducted an audit of training contractor Entrena, S.A. The audit included the evaluation of
recorded direct and indirect costs to determine final contract costs for its performance from
January 1, 2007-December 31, 2010, under contract number PC-07-2-0001. OIG reviewed the
contractor‟s accounting procedures and practices, internal controls, and compliance with contract
provisions, applicable cost accounting standards, and Federal Acquisition Regulations. It was
determined that the contractor had taken significant steps to improve its internal controls and no
current significant internal control weaknesses were identified. However, OIG found that the
contractor overbilled the Peace Corps $34,382 for fixed-fee payments. The audit results were
provided to the contracting officer for resolution.

Questioned Costs
Overbilled for total costs, including fixed fees - $34,382




April 1 to September 30, 2012                                                             23
PAGE INTENTIONALLY LEFT BLANK
Evaluations




View of the Yangtze River from the city of Wanzhou, a Volunteer site in the province
of Chongqing, China.
                                      Evaluations
Overview

The Evaluation Unit provides the agency with independent evaluations of Peace Corps programs,
operations, and management at overseas posts and domestic offices and programs. It promotes
greater efficiency and effectiveness by identifying best management practices and
recommending program improvements and means by which to comply with Peace Corps policies
and federal regulations.

During this reporting period, OIG continued to provide management with comprehensive
assessments of how effectively overseas country programs and headquarters operations are
functioning. Along with the final reports described on the following pages, evaluations of
Colombia, Malawi, and Namibia have been initiated. The Evaluation Unit also began planning
and designing evaluation activities for FY 2013 work required by the Kate Puzey Act.

Evaluations are conducted under the direction and guidance of the assistant inspector general for
evaluations and in accordance with the CIGIE‟s Quality Standards for Inspection and
Evaluation. Country program evaluations include interviews, reviews of relevant documents and
data, physical observations, and analyses by evaluators. OIG evaluators interview Volunteers,
headquarters and post staff, and key host country and U.S. government officials. For the
interviews, evaluators select a representative sample of currently serving Volunteers based on
length of service, site location, project focus, gender, age, marital status, and ethnicity.
Evaluators conduct most of the Volunteer interviews at the Volunteers‟ homes and worksites;
they inspect housing and assess Volunteer safety and health care using post and agency-defined
criteria. The period of review for a country program evaluation is one full Volunteer cycle
(typically 27 months).

For country program evaluations, OIG uses the following researchable questions to guide its
work:
           Has the post developed and implemented programs intended to increase the capacity
           of host country communities?
           Does training prepare Volunteers for Peace Corps service?
           Has the post provided adequate support and oversight to Volunteers, including health
           care and personal safety?
           Are post resources and agency support effectively aligned with the post‟s mission and
           agency priorities?
           For posts receiving PEPFAR funding, is the post able to adequately administer the
           PEPFAR program, support Volunteers, and meet its PEPFAR objectives?




     26                                                 Semiannual Report to Congress
                               PEACE CORPS O FFICE OF INSPECTOR GENERAL


Agency-wide Evaluations
Impacts of the Five-Year Rule on Operations of the Peace Corps
IG-12-05-E

OIG issued its final report on the impacts of the “five-year rule” (FYR) on operations of the
Peace Corps in June 2012. The FYR, which became law in 1965, generally limits Peace Corps
employment to five consecutive years. It was put in place to create a constant flow of new
employees, including returned Peace Corps Volunteers (RPCVs), to avoid the administrative
inflexibility associated with the civil service system, and to prevent employees from spending
their entire careers at the Peace Corps.

The FYR has resulted in a mission-driven, energetic, and optimistic workforce attracted to the
Peace Corps in spite of the time-limited appointments. The FYR has allowed the agency to
extensively hire RPCVs, whom the agency has employed in a wide range of functions, including
leadership positions at overseas posts.

However, the evaluation found the FYR has created unique problems as well as exacerbated
common management challenges. The average tenure of Peace Corps‟ direct hires over the past
10 years has been just under three years. The FYR has accelerated t he pace of employee
turnover at the Peace Corps to between 25 percent and 38 percent per year, which is quadruple
that of the rest of the federal government. High turnover has undermined the agency‟s ability to
retain employees on the basis of performance, conduct meaningful succession planning, ensure
continuity of needed skills and abilities, provide training and education to improve performance,
and deploy its workforce efficiently.

The FYR has compromised the agency‟s ability to attract and retain highly qualified personnel to
perform contracting, financial management, information technology, human resources
management, and medical support functions. Excessive turnover has led to frequent staffing gaps
in key direct-hire management positions overseas, negatively affecting staff workload and
morale, Volunteer support, programming, training, and other areas. In addition, the policy of
employing staff on 30-month tours has weakened the agency‟s culture of performance
management, allowing supervisors to avoid the unpleasant task of managing underperforming
employees during their service.

Although managers overseas are frequently RPCVs, from 2000-10 only 24 percent of the
agency‟s senior staff positions at Peace Corps headquarters have been filled by RPCVs. Finally,
OIG determined that, from 2005-09, the FYR contributed between $12.6 million and $15.5
million of a total $20.7 million in turnover management costs.3




3
 This estimate only includes direct costs and did not take into account costs that were more difficult to quantify,
including the loss of expertise when high-performing staff appointments ended, reductions in productivity, or gaps
in institutional memory and knowledge.


April 1 to September 30, 2012                                                                              27
Management concurred with all five recommendations. At the end of the reporting period, five
recommendations remain open.

Review of the Peace Corps’ Implementation of Guidelines Related to Volunteer
Victims of Rape and Sexual Assault
IG-12-08-E

OIG issued its final review of the Peace Corps‟ implementation of guidelines related to
Volunteer victims of rape and sexual assault in September 2012. During 2010 and 2011 RPCV
rape and sexual assault victims brought their concerns regarding the agency‟s response to the
rapes or sexual assaults they experienced during their service to the Peace Corps Director,
elected officials, OIG, and the media. The victims said the agency‟s response was inadequate,
uncompassionate, victim-blaming, and ineffective and cited a lack of staff accountability and
oversight of the response effort. OIG‟s review examined agency guidelines and protocols, made
recommendations to improve support to Volunteer victims of sexual assault, and identified best
practices observed at selected posts.

OIG found the agency accomplished a number of initiatives in 2011 to address concerns raised
by sexual assault victims. A Commitment to Sexual Assault Victims was issued, spelling out a
framework for response to sexual assaults predicated on compassion, safety, open
communication, and respect for the privacy of victims. A victim's advocate was hired to work
with Volunteers and staff to enhance support for victims of sexual assault and other serious
crimes. The agency implemented new guidance and training for staff through its Guidelines for
Responding to Rape and Sexual Assault (Response Guidelines). While the Response Guidelines
established a uniform notification and response protocol for Volunteer or trainee sexual assault
incidents at all Peace Corps posts, OIG found the agency needs to take additional steps to ensure
its response to sexual assault incidents is consistent, that staff is accountable, and there are
systems in place to assess and address any shortcomings.

OIG found the rape and major sexual assault victims it interviewed were generally satisfied with
the agency‟s response to their incidents. However, Volunteers who reported sexual assault
incidents not classified as a rape or major sexual assault were not consistently receiving medical
consultations, follow-up care, or support that some of them needed. OIG found the agency did
not use a centralized case-management system to verify, track, and assess required sexual assault
response protocols. The lack of a centralized system made it difficult to confirm the quality and
consistency of victim care and to identify and correct lapses in services to victims.

OIG identified several issues related to the Response Guidelines and related training that requires
attention. The participation of country directors (CDs) and post medical officers in the Response
Guidelines training had been inconsistent. Some CDs were not familiar with country-specific
information relative to sexual assault crimes and the legal process in their host countries, and
staff members assigned as acting CDs were not consistently trained to conduct incident
responses or oversee sexual assault incident management.

Management concurred with all 12 recommendations. At the end of the reporting period, 12
recommendations remain open.


     28                                                  Semiannual Report to Congress
                               PEACE CORPS O FFICE OF INSPECTOR GENERAL


Country Program Evaluations
PC/China: Country Program Evaluation
IG-12-04-E

OIG issued its final country program evaluation report of PC/China in May 2012. Over 700
Volunteers have served in China since the program began in 1993. At the time of OIG‟s visit, 24
staff supported 163 Volunteers working in the teaching English as a foreign language sector. The
post‟s FY 2011 budget was $1.97 million4.

The evaluation of PC/China revealed a post performing well in many areas. The post‟s local staff
was experienced, capable, and dedicated to the Peace Corps mission; American staff members
were hardworking and focused on addressing key challenges. Volunteers were generally
successful with their work activities and very satisfied with the support they received from post
staff.

The evaluation uncovered areas that required management attention. Internal office
communications were constrained by cultural differences, monitoring by the Chinese
government, poor communications infrastructure, and an unusually busy and stressful year.
Senior staff had taken some steps to improve this, and the OIG report recommended additional
actions to strengthen the quality of intra-office communications.

Many Volunteers envisioned a “mud hut” experience but found they were living in large cities in
modern apartments on large university campuses, far removed from China‟s many poor rural
communities. This created a number of integration challenges. OIG encouraged the post to
continue to develop and implement additional strategies to extend Volunteer placements to sites
more advantageous to cultural integration, although site placements and housing selection
remained tightly controlled by the Chinese government. Nonetheless, Volunteers were satisfied
their work addressed China‟s development needs by training teachers to become primary and
middle school English teachers in poor rural areas. Volunteer morale in China was high and the
rate of Volunteer resignations has remained consistently below regional and global averages.

The report also identified additional programmatic weaknesses, including the ineffectiveness of
the Volunteer leader program and confusion among Volunteers regarding their emergency
consolidation points.

Management concurred with all eight recommendations. At the end of the reporting period, three
recommendations remain open.




4
  The budget figures listed in this SARC for all program evaluation reports do not include the salaries, benefits, and
related costs of U.S. direct hires assigned to posts and other costs the agency has determined should be centrally
budgeted.


April 1 to September 30, 2012                                                                                29
PC/Uganda: Country Program Evaluation
IG-12-06-E

OIG issued its final country program evaluation report of PC/Uganda in July 2012. Over 1,000
Peace Corps Volunteers have served in Uganda since the program was first launched in 1964.
The program was terminated in 1972 due to civil unrest, reopened in 1991, and was again
suspended in May 1999 because of security issues. Volunteers and a full staff returned in 2001.

At the time of the OIG‟s visit, 147 Volunteers were serving in the education, community health,
and economic development sectors. The post‟s FY 2011 appropriated budget was approximately
$2 million, which was supplemented by $1.4 million of FY 2011 PEPFAR funds.

The post experienced significant leadership turnover from September 2009 to July 2011. The
post had five country directors during this period, while at the same time Volunteer numbers
increased and the post expanded into new geographic areas. These factors negatively impacted
the quality of post programming and Volunteer safety and security systems and procedures.
Administrative gaps, such as the lack of regular annual performance appraisals, also surfaced.

While the post had required safety and security systems in place, many components, such as
emergency consolidation points, site locator forms, plans for emergency action, and medical
evacuation, had not received sufficient attention. OIG found that Volunteers were not reporting
crimes and U.S. Embassy personnel were not receiving incident reports through Peace Corps‟
reporting system. OIG also found that some Volunteer sites did not have reliable access to
approved transportation and that medical and health factors were not sufficiently considered
when developing Volunteer sites.

The post has made modifications to the programming and training staffing structure and is
moving in the right direction. OIG identified some areas for improvement. The education
project‟s structure, with two sub-components and differing project activities, impacted the
effectiveness of technical training and Volunteer support. The post did not have project advisory
committees and did not publish an annual report for stakeholders.

Management concurred with all 26 recommendations. At the end of the reporting period, 18
recommendations remain open.




     30                                                 Semiannual Report to Congress
                          PEACE CORPS O FFICE OF INSPECTOR GENERAL


PC/Indonesia: Country Program Evaluation
IG-12-07-E

OIG issued its final country program evaluation of PC/Indonesia in September 2012. Nearly 50
Peace Corps Volunteers served in Indonesia when the program first operated from 1963-65.
After a 45-year absence, the program reopened in March 2010. At the time of OIG‟s visit, 23
staff members were supporting 39 Volunteers serving in the English teaching and teacher
training sector. There were also 46 trainees participating in pre-service training. The post‟s FY
2012 budget was $1.8 million.

Due to interest from the Department of State and the U.S. presidential administration, the post
opened with an accelerated reentry timeline, which did not allow a sufficient amount of time to
establish operations. This negatively impacted Volunteer training, staff hiring, and host country
partner relations. However, since the initial reopening, the staff has done an impressive job
developing its systems and processes, and most interviewed Volunteers were placed in sites
where they could be productive, develop counterpart relationships, and receive effective support
from staff. The post staff also developed collaborative relationships with Indonesian project
partners.

Although the post was performing well in many areas, the evaluation uncovered areas for
improvement. Staff reported that the responsibilities of the programming positions were not
well-differentiated, with some staff members performing similar duties regardless of their skill,
experience, and salary levels. Interviewed Volunteers also noted that technical training needed
further improvement. Secondary language training was generally considered to be ineffective,
and some interviewed Volunteers questioned its usefulness.

The evaluation also noted weaknesses in an otherwise strong safety and security system. The
post had not tested the emergency action plan (EAP) using alternate communications, which is
required by Peace Corps policy, and had not developed a process to distribute critical EAP
updates to staff and Volunteers. In addition, 42 percent of interviewed Volunteers could not
correctly identify their emergency consolidation point.

Management concurred with all 12 recommendations. At the end of the reporting period, 11
recommendations remain open.




April 1 to September 30, 2012                                                             31
PAGE INTENTIONALLY LEFT BLANK
Investigations




OIG conducted a joint investigation/audit of medical supplies at PC/Burkina Faso.
                                     Investigations
Overview

OIG is authorized to conduct investigations on waste, fraud, abuse, and mismanagement in Peace
Corps programs and operations both domestically and overseas. OIG investigators have full law
enforcement authority. They investigate both criminal and administrative misconduct allegations
involving Peace Corps staff, contractors, and Volunteers, including violations of Peace Corps
and U.S. government standards of conduct. Allegations are forwarded to OIG through multiple
means, including OIG audits and evaluations, hotline complaints, and by Peace Corps
stakeholders, including Volunteers, trainees, staff, contractors, and other federal entities, as well
as the general public.

During this SARC period, OIG experienced a 12-percent increase in allegations and complaints
submitted to its office over the previous reporting period. At the end of FY 2012, the
investigative unit handled 244 complaints and allegations, a 112-percent increase over FY 2011.
As OIG continues to enhance its outreach activities, the number of complaints received is
expected to grow.

In September 2012, then-Director Aaron Williams issued a letter reminding Peace Corps
employees, staff, and Volunteers of their obligation to cooperate with the Office of Inspector
General. The Director‟s message recognized the value of OIG‟s work to the agency, and should
improve agency cooperation with OIG special agents during investigations. OIG will continue to
work with the agency to communicate the importance of complying with the Inspector General
Act, federal regulations, and Peace Corps policies.

OIG and the Department of State, Bureau of Diplomatic Security (DS), implemented the terms of
a memorandum of understanding (MOU) signed in May 2012. The separate agreement with
OIG, part of the broader Peace Corps/DS MOU, formalizes channels for information sharing,
cooperation, and mutual assistance among law enforcement personnel. During the SARC period,
OIG received exceptional support from DS, which greatly enhanced the effectiveness of OIG‟s
investigations.

OIG renewed its efforts to proactively identify fraud by Federal Employees‟ Compensation Act
recipients. OIG engaged with partners at the Recovery Accountability and Transparency Board
to research potential fraud and conducted field investigations and interviews to verify continued
eligibility for benefits.

Finally, in preparation for a report required under the Kate Puzey Act of 2011, OIG continued to
gather data concerning Volunteers‟ allegations of misconduct, mismanagement, and/or policy
violations of Peace Corps staff, breaches of Volunteer confidentiality, and actions taken to assure
the safety of Volunteers.




     34                                                   Semiannual Report to Congress
                          PEACE CORPS O FFICE OF INSPECTOR GENERAL


Legacy Cases
Homicide Investigation at a Post in Africa

The investigation of a 1998 Volunteer homicide remains open and ongoing. OIG continues to
work with the regional security officer, the FBI, and a local attorney in support of efforts to
properly secure additional evidence in the case.

Conviction of a Former Peace Corps Volunteer

OIG, U.S. Immigration and Customs Enforcement, and the South African National Police
investigated an allegation that a former Peace Corps Volunteer, Jesse Osmun, had engaged in
illicit sexual conduct with children at an AIDS center in South Africa in violation of the
Prosecutorial Remedies and Other Tools to end the Exploitation of Children Today Act while
serving as a Peace Corps Volunteer. On June 27, 2012, Osmun pleaded guilty to one count of
traveling from the United States to South Africa to engage in illicit sexual conduct with children.
Osmun admitted he had sexually abused four girls, all under age six, while he was a Volunteer.
Osmun‟s sentencing is scheduled to be held in October 2012.

Criminal and Misconduct Related Investigation Highlights
Nepotism Allegation at Peace Corps Headquarters

OIG received an allegation from an employee who was at the time under investigation for misuse
of a government computer. The alleger stated a supervisor hired friends and family, preferred to
hire employees who had worked at the U.S. Agency for International Development, and was
biased against employees who had worked for the Department of Defense. A review of the
supervisor‟s hiring practices did not support the allegation.

Medical Supply Problems at a Post in Africa

OIG received information from OMS that the medical unit at the post was exhibiting a high
number of discrepancies in pharmaceutical inventory and very high medical supply costs, which
indicated potential theft. A joint investigations and audit team, accompanied by a representative
from OMS, conducted an unannounced inspection of the post‟s medical unit. The inspection did
not disclose theft, but exposed a major breakdown of internal controls resulting in the loss of
controlled substances, improper dispensing of medication by unqualified personnel, the
unauthorized disposal of up to $52,000 in medical supplies to unknown private entities,
unnecessary destruction of drugs, and wasteful purchasing practices. The contracts of the PCMO
and the medical secretary were terminated, and the post and OMS took immediate action to
implement internal controls.




April 1 to September 30, 2012                                                              35
Reprisal Allegation at a Post in Europe

OIG received an allegation from a post manager who claimed that both post and headquarters
senior management had retaliated against the manager for the manager‟s involvement in an OIG
investigation. OIG determined that the manager engaged in protected activity by reporting
alleged child sexual abuse by a Volunteer to headquarters, contrary to the guidance he received
from his supervisor, a CD. The investigation found that his superiors had knowledge of the
protected activity and took personnel actions affecting the manager close in time to the protected
activity. The OIG investigation disclosed sufficient evidence to warrant referral to the U.S.
Office of Special Counsel.

Vehicle Auction Rigging at a Post in Asia

OIG received a complaint about the alleged rigging of auctions of excess government-owned
vehicles (GOVs). The investigation disclosed that a locally hired Peace Corps driver conspired
with the post‟s general services manager (GSM) to obtain two GOVs from a post auction. In
doing so, the driver violated federal conspiracy, theft, and wire fraud statutes, as well as Peace
Corps policy precluding staff from bidding on GOVs auctioned by the Peace Corps. OIG
determined the loss to the Peace Corps was between $6,700 and $16,100. The Department of
Justice declined to prosecute in lieu of administrative remedies.

Conflict of Interest at a Post in Asia

OIG received an allegation that a GSM used his/her position to direct printing contracts to a
printing company owned or operated by the brother of the GSM. OIG determined the GSM‟s
brother had been employed as a printer, but there was no evidence the GSM steered business to
him or his employer.

It was also alleged that the GSM frequently borrowed money from subordinates. One employee
reported feeling pressured to provide the GSM a loan for fear that the employee‟s vacation
request would not be approved. The investigation disclosed the GSM knowingly violated the
federal government‟s standards of conduct related to conflicts of interest by using the GSM
position to coerce subordinate employees to provide a private gain in the form of personal loans.
The Department of Justice declined to prosecute in lieu of administrative remedies.

Conversion of Grant Funds at a Post in Africa

OIG received an allegation that two Volunteers used small project assistance (SPA) grant money
to obtain an equity stake in a local business. OIG‟s investigation disclosed that the two
Volunteers and their business partners in the U.S. invested funds in a for-profit cashew-
processing business at one of the Volunteers‟ sites. Both Volunteers admitted to obtaining the
SPA grant to fund the purchase of cashew-processing machinery and obtain a stake in the
enterprise. The Department of Justice declined to prosecute. Both Volunteers resigned in lieu of
administrative separation and repaid the SPA grant funds.




     36                                                   Semiannual Report to Congress
                         PEACE CORPS O FFICE OF INSPECTOR GENERAL


Breach of Confidentiality at a Post in South America

OIG investigated a complaint that post management had inadvertently disclosed the identity of a
Volunteer who had reported another Volunteer for using and distributing drugs. Prior to
reporting the drug-related matters to OIG, post management questioned the subject Volunteer
about the allegation at the post. The subject Volunteer denied the allegation, and was asked to
wait outside an office while post management called the alleger on speakerphone. While waiting
outside the office, the subject Volunteer overheard the conversation and the subject Volunteer
was able to identify the alleger. The subject Volunteer resigned during the OIG investigation.

Violation of Small Business Development Regulations

OIG continues to investigate allegations related to violations of small business development
regulations by Peace Corps contractors. OIG made two related suspension/debarment referrals on
this matter during the SARC period.




April 1 to September 30, 2012                                                          37
PAGE INTENTIONALLY LEFT BLANK
Tables




The OIG Outreach Committee developed a Twitter account as another means of
reaching OIG’s stakeholders and furthering OIG’s mission. Follow OIG on
@PCOIG.

The Virunga Mountains in Uganda.
                                              Tables
1: List of Reports: Audits and Evaluations

                                              Agency-wide
   Review of the Peace Corps‟ Implementation of Guidelines Related to Volunteer Victims of Rape and
   Sexual Assault (IG-12-08-E)
   Impacts of the Five-Year Rule on Operations of the Peace Corps (IG-12-05-E)


                                                Post Audits
   PC/Lesotho: Audit (IG-12-05-A)
   PC/China: Limited Scope Audit (IG-12-06-A)
   PC/Jordan: Audit (IG-12-07-A)
   PC/Tonga: Audit (IG-12-08-A)


                                      Country Program Evaluations
   PC/China: Country Program Evaluation (IG-12-04-E)
   PC/Uganda: Country Program Evaluation (IG-12-06-E)
   PC/Indonesia: Country Program Evaluation (IG-12-07-E)




    40                                                        Semiannual Report to Congress
                                PEACE CORPS O FFICE OF INSPECTOR GENERAL


2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use

                                                                         Questioned   Unsupported     Funds Put to
                               Report
                                                                           Costs5       Costs6         Better Use7
PC/Lesotho: Audit (IG-12-05-A)
Bills of collection inappropriately voided                                                               $2,374
Estimated amount of potential value-added tax refunds unclaimed
                                                                                                         $64,670
from FY 2007 – 2011

PC/Jordan: Audit (IG-12-07-A)
Reduction in costs related to International Cooperative
                                                                                                         $9,300
Administrative Support Services projected over the next three years

PC/Tonga: Audit (IG-12-08-A)
Lack of controls over voided bills of collection for sale of vehicle                    $7,100
Lack of controls over voided bills of collection for Volunteer
                                                                                        $2,300
allowances
Inadequate controls over the sale and disposal of Peace Corps
                                                                                        $3,000
vehicles

Entrena S.A. Contract Closeout Audit
Overbilled for fixed-fee payments                                         $34,382

Management Advisory Report on the Breakdown of Internal
Controls of the PC/Burkina Faso Medical Unit
Unaccounted-for medical supplies transferred from another PC post                       $52,000


                                                                 Total                   $175,126




5
  Questioned Costs – a cost that is an alleged violation of government or Peace Corps regulations. For example:
prohibited purchases or expenditure of funds for purposes that do not relate to the Peace Corps mission.
6
  Unsupported Costs – a cost that is not supported by adequate documentation.
7
  Funds Put to Better Use – a cost that could be used more efficiently, such as costs for unnecessary goods or
services.

April 1 to September 30, 2012                                                                             41
   3: Status of Reports Issued by OIG with Questioned and Unsupported Costs

                                                                       Number of   Questioned     Unsupported
                                                                        Reports      Costs           Costs
A. Reports issued prior to this period
  For which no management decision has been made on any issue              -           -                   -
  For which some decisions had been made on some issues                    -           -                   -

B. Reports issued during this period                                      3         $34,382             $64,400

Totals of Categories A and B                                              3         $34,382             $64,400

C. For which final management decisions were made during this period
 Dollar value of disallowed costs                                         3         $34,382             $64,400
 Dollar value of costs not disallowed                                     -            -                   -

D. For which no management decisions were made during this period          -           -                   -

E. For which management decisions were made on some issues during                                          -
                                                                           -           -
this period

Totals of Categories C, D, and E                                          3         $34,382             $64,400
Total questioned costs and unsupported costs                              3                   $98,782




         42                                                     Semiannual Report to Congress
                                   PEACE CORPS O FFICE OF INSPECTOR GENERAL


   4: Status of Reports Issued by OIG with Funds to be Put to Better Use

                                                                                Number of   Funds Put to
                                                                                 Reports     Better Use
A. Reports issued prior to this period
  For which no management decision has been made on any issue                       -             -
  For which some decisions had been made on some issues                             -             -

B. Reports issued during this period                                               2          $76,344

Totals of Categories A and B                                                       2          $76,344

C. For which final management decisions were made during this period
 Dollar value of recommendations agreed to by management                           2          $76,344
 Dollar value of recommendations not agreed to by management                       -             -

D. For which no management decisions were made during this period                   -             -

E. For which management decisions were made on some issues during this period       -             -

Totals of Categories C, D, and E                                                   2          $76,344




   April 1 to September 30, 2012                                                             43
5: Recommendations on which Corrective Action has not been Completed

Audits and Evaluations
                                    Open Recommendations 60 to 119 Days
                                                                                               Agency
                                                                                             Concurrence8




                                                                                              Concur



                                                                                                             Partial
                                                            Date           Total Open




                                                                                                       Non
                           Report
                                                           Issued       Recommendations

    PC/Uganda: Country Program Evaluation
                                                            7/6/2012          18             18        -      -
    (IG-12-06-E)
    Impacts of the Five-Year Rule on Operations of the
                                                           6/20/2012          5               5        -      -
    Peace Corps (IG-12-05-E)
    PC/Lesotho: Audit (IG-12-05-A)                         6/29/2012          1               1        -      -
                                                               Total          24             24        -      -

                                  Open Recommendations 120 to 179 Days
                                                             Date          Total Open
                           Report
                                                            Issued      Recommendations
    PC/China: Country Program Evaluation (IG-12-04-E)      5/24/2012            3             3        -      -
                                                                Total           3             3        -      -

                               Open Recommendations More than 180 Days
                                                            Date           Total Open
                           Report
                                                           Issued       Recommendations
    PC/HQ Medical Clearance System: Evaluation
                                                           3/31/2008          5               5        -      -
    (IG-08-08-E)
    PC/Guinea: Audit (IG-09-09-A)                          3/31/2009          2               2        -      -
    PC/HQ Office of Chief Information Officer: Budget
                                                           1/11/2010          7               7        -      -
    Formulation and Management Audit (IG-10-05-A)
    PC/HQ Volunteer Delivery System: Evaluation
                                                           11/6/2010          14             14        -      -
    (IG-11-01-E)
    PC/Mozambique: Audit (IG-11-05-A)                      3/31/2011          1               1        -      -
    PC/Ukraine: Audit (IG-11-06-A)                         3/31/2011          6               5        1      -
    PC/Swaziland: Country Program Evaluation (IG-11-
                                                           8/19/2011          2               2        -      -
    06-E)
    PC/Liberia: Country Program Evaluation (IG-11-07-E)     9/8/2011          11             11        -      -
    PC/Fiji: Country Program Evaluation (IG-12-01-E)      11/30/2011          2               2        -      -
    PC/Kyrgyz Republic: Country Program Evaluation
                                                           12/6/2011          3               3        -      -
    (IG-12-02-E)
    PC/HQ The Process for Formulating and Executing
                                                          11/30/2011          9               8        1      -
    Peace Corps' Budget: Audit (IG-12-02-A)
    PC/Costa Rica: Audit (IG-12-03-A)                       3/9/2012          2               2        -      -
    PC/Mali: Audit (IG-12-04-A)                            3/22/2012          11             10        1      -
                                                               Total          75             72        3      -



8
 The sum of open recommendations in the Agency Concurrence columns equals the number in the Total Open
Recommendations column.

         44                                                      Semiannual Report to Congress
                              PEACE CORPS O FFICE OF INSPECTOR GENERAL



                    Financial Statement and FISMA Recommendations 9
                                                                                 Agency
                                                                               Concurrence




                                                                                Concur



                                                                                               Partial
                                                       Open




                                                                                         Non
                        Fiscal Year Issued
                                                  Recommendations

                      PC/HQ FY 2011 Financial Statement Audit (IG-11-00-A)
                        FY 2011                            4                    3        1      -
                        FY 2010                            2                    2        -      -
                        FY 2009                            2                    2        -      -
                        FY 2007                            1                    1        -      -
                        FY 2005                            1                    1        -      -
                        FY 2004                            1                    1        -      -
                                       Total              11                   10        1      -


                      PC/HQ FY 2011 Information Security Program Audit (IG-11-99-A)
                        FY 2011                            2                    2        -      -
                        FY 2010                            1                    1        -      -
                        FY 2009                            3                    3        -      -
                        FY 2008                            4                    4        -      -
                        FY 2007                            4                    4        -      -
                                       Total              14                   14        -      -




9
  All recommendations issued in conjunction with these two reports are part of a normal 12-month audit cycle. As a
result, recommendations made during a given fiscal year will remain in an open status during the entire subsequent
fiscal year. At the beginning of each new fiscal year, the auditors will notify management of whether sufficient
corrective actions have been taken regarding the prior year recommendations and issue their current notification of
findings and recommendations. Prior year findings and recommendations may be reissued if management has not
taken sufficient corrective actions.

April 1 to September 30, 2012                                                                             45
6: Summary of Investigative Activities and Outcomes 10

                  Investigative Activities
                                                                        Preliminary         Cases
                                                                         Inquiries11
                   Opened as of 4/1/2012                                     32               13
                   Opened during 4/1/2012–9/30/2012                          86                7
                   Closed during 4/1/2012–9/30/2012                          90                5
                   Total Open as of 10/1/2012                                28               15

                  Referrals
                   Referrals to Department of Justice                                        14
                   Referrals to Agency for Administrative Action                              9
                   Other Referrals to Agency Management                                      28
                   Referrals to Other Agencies                                                4

                  Court Actions
                   Ongoing Prosecution12                                                     2
                   Convictions                                                               1
                   Judgments                                                                 -
                   Fines/Restitution                                                      $10,000

                  Administrative Actions
                   Employees (Resignations and Terminations)                                  5
                   Other Employee Actions                                                     2
                   Suspension/Debarment Referrals                                             3

                  Monetary Results
                   Annual Savings                                                             -
                   Recoveries/Restitution                                                 $20,350
                   Cost Avoidance                                                         $6,70013




10
   Volunteers/trainees are included as Peace Corps employees for the purpose of reporting investigative activity.
11
   Preliminary inquiries are initiated for complaints which either (1) are received from a Peace Corps source (e.g.,
staff, Volunteer, contractor) or (2) relate to a matter within the jurisdiction of OIG. A preliminary inquiry is limited
in scope to the verification of information in a complaint or allegation and to confirm that it falls within the
jurisdiction of OIG.
12
   Includes arrests, indictments, information, and overseas criminal proceedings.
13
   The cost avoidance was between $6,700 and $16,100.

       46                                                             Semiannual Report to Congress
                               PEACE CORPS O FFICE OF INSPECTOR GENERAL


7: Summary of Hotline and Other Complaints

                   Hotline Complaints Received                                            101
                   Non-Hotline Complaints Received 14                                     28
                   Total Complaints from all Sources15                                    129
                   Resulted in Investigations                                              7
                   Resulted in Preliminary Inquiries                                      75
                   Resulted in Audits or Evaluations                                       2
                   Referred to Agency Management                                          28
                   Referred to Other Agency                                                3
                   No Action Needed                                                        6




14
   These complaints are largely a result of outreach by OIG staff and were received by email, phone calls, and
conversations.
15
   In some instances, OIG received multiple complaints for the same issue, which resulted in fewer actions
(investigations, preliminary inquiries, audits, evaluations, referrals, or no action) than complaints received.

April 1 to September 30, 2012                                                                               47
8: References to Reporting Requirements of the Inspector General Act

  Act Reference                                 Reporting Requirements                            Page
 Section 4(a)(2)    Review of legislation and regulations                                          51
 Section 5(a)(1)    Significant problems, abuses, and deficiencies                                34-37
 Section 5(a)(2)    Significant recommendations for corrective actions                            8-23
                    Prior significant recommendations on which corrective action has not been
 Section 5(a)(3)                                                                                  44-45
                    completed
 Section 5(a)(4)    Matters referred to prosecuting authorities                                   34-37
 Section 5(a)(5)    Summary of instances where information was refused                             n/a
 Section 5(a)(6)    List of audit reports, including evaluations, inspections, and reviews         40
 Section 5(a)(7)    Summary of significant reports                                                20-31
 Section 5(a)(8)    Statistical table - questioned and unsupported costs                           41
 Section 5(a)(9)    Statistical table - funds to be put to better use                              43
 Section 5(a)(10)   Summary of previous audit reports without management decisions                 n/a
 Section 5(a)(11)   Significant revised management decisions                                       n/a
 Section 5(a)(12)   Significant management decisions with which the Inspector General disagrees    n/a
 Section 5(a)(13)   Information under Federal Financial Management Improvement Act of 1996         n/a




      48                                                                Semiannual Report to Congress
Appendixes




PC/Indonesia Volunteer Robert Buhagiar and Lead Evaluator Heather Robinson with
Buhagiar’s eleventh grade class.
                                           Appendixes

A: Reporting of Peer Reviews
Pursuant to Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
(Public Law No. 111-203),16 the Peace Corps OIG reports the following peer review
information:

During the reporting period, there were no peer reviews conducted of the Peace Corps OIG. The
Audit and Investigation Units are required to conduct peer reviews and be subject of a peer
review every three years.

Audit Unit

In June 2011, the U.S. Government Printing Office OIG conducted a peer review of the Audit
Unit of the Peace Corps OIG in effect for the year ending September 30, 2010. In its comment
letter, the GPO OIG issued findings that were not considered to be of sufficient significance to
affect the opinion expressed in that report. Peace Corps OIG initiated action to update its audit
policies and procedures, enhance working paper documentation, and formalize the process for
overseeing independent public auditors.

Investigation Unit

The Investigation Unit is expected to undergo a peer review in early 2013. The Investigation
Unit was recently included in the CIGIE peer review schedule after having been granted
authority from the U.S. attorney general to exercise statutory law enforcement powers.

B: Contract Audit Reports
Pursuant to Section 845A of the National Defense Authorization Act for Fiscal
Year 2008 (Public Law No. 110-181), the Peace Corps OIG reports final contract audit reports
with significant audit findings: During this reporting period, OIG did not issue any contract audit
reports with significant audit findings.




16
  Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act amends Section 5(a) of the
Inspector General Act of 1978 (5 U.S.C. App.).

      50                                                       Semiannual Report to Congress
                               PEACE CORPS O FFICE OF INSPECTOR GENERAL


C: Review of Legislation and Regulations
Implementation Highlights of the Kate Puzey Act 17

The agency reports it has taken a number of steps to implement its Sexual Assault Risk
Reduction and Response (SARRR) Program. The agency reported it has developed a framework,
performance measures, and timeline for the SARRR program. The agency informed OIG it
created new training for Volunteers on sexual assault awareness, risk-reduction strategies,
reporting and response protocols, and bystander intervention. The agency reports 200 overseas
staff members have been instructed in how to deliver the training to Volunteers and 385 overseas
staff members have received, or will receive, training on the agency‟s sexual assault protocols
and how staff can support Volunteer victims of sexual assaults. The agency revised policies and
procedures for Volunteers who are medically evacuated as a result of a sexual assault or other
serious crime and created a new Medevac Support Program. The agency also created the Peace
Corps‟ Sexual Assault Advisory Council, consisting of RPCVs and leading experts and
professionals. The council held its first meeting in July 2012. In addition, the agency hired a
sexual assault nurse examiner and formally established and hired staff for an Office of Victim
Advocacy.

The agency reports it began systematically tracking arrests, prosecutions, and incarcerations for
crimes against Volunteers. The agency issued guidance to overseas staff on specific procedures
to follow when Volunteers express concerns about their safety and situations that threaten their
well-being. Under new agency policy, any Volunteer who feels at risk of imminent bodily harm
at his or her site must, upon request, be expeditiously removed from that site. The agency issued
an internal policy enhancing its authority to pay attorney and court costs for Volunteers
participating in criminal proceedings overseas. In May 2012, the Peace Corps and the
Department of State‟s, Bureau of Diplomatic Security (DS) signed an MOU formalizing how the
two agencies will respond to crimes against Volunteers. The MOU was published in the Foreign
Affairs Manual and disseminated to all CDs. The Peace Corps and DS are coordinating efforts to
implement instructions for regional security officers and Peace Corps staff overseas.

While the reported progress is encouraging, OIG is concerned that the agency has not yet
established several key components in its SARRR program. Specifically, the agency has not yet
designated or deployed sexual assault response liaisons at all posts to respond to reports of
sexual assault. A system for restricted reporting of sexual assault as defined by the Kate Puzey
Act has not yet been put in place and a 24-hour sexual assault hotline for Volunteers to report
sexual assaults and receive counseling and information on reporting and response procedures is
not yet operational.




17
   As part of the Kate Puzey Act, OIG will report on (1) the implementation of the agency‟s SARRR program
training and policy, including case studies; (2) how the agency hires/terminates its CDs, including an assessment of
CD performance plans as well as how CDs hire post staff; and (3) Volunteers‟ allegations of misconduct,
mismanagement, and/or policy violations by Peace Corps staff, any breaches of victim confidentiality, and any
actions taken to assure the safety of Volunteers.

April 1 to September 30, 2012                                                                              51
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                www.peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 http://www.peacecorps.gov/OIG
            Twitter:               https://twitter.com/PCOIG
PAGE INTENTIONALLY LEFT BLANK
